U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

January 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Jimmie Eugene White II v. United States
No. 19-587
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 1,
2019, and placed on the Court's docket on November 5, 2019. The government's response is
currently due, on one extension, on January 6, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including February 5, 2020, within which to file the government's response. This extension
is necessary because the attorneys with principal responsibility for final preparation of the
government's response have been heavily engaged with the press of other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Noel J. Francisco
Solicitor General

cc:

See Attached Service List

ADS 2.2

Page 1 of 1

Docket Entry: 19-0587
WHITE, JIMMIE EUGENE, II vs. USA

Division: CRIMINAL Agency:
Add'l Division/Agency:
Petition File Date: 2019-11-01 Type: CERT Deputy: EJF
Received Date: 2019-11-06 Attorney: YANG
Div Attorney: JENNY C. ELLICKSON Placed On Docket Date: 2019-11-05
Private Resp/App Response Filed Date: Government Reply Due Date:
Private Resp/App Reply Filed Date: Gov. Pet Reply Filed Date:
DOJ File #: SC mv Date:
Hold For:
IFP: Gov't Case: I Hold: GVR: Gov't Petition:
Supporting Petitions: AMICUS:
Draft Due Date: 2019-12-05 Draft Received Date: 2019-12-16
Deputy To Ally Date: Waiver Date:
Court Request Date: Conference Date: Re: Participation:
OSG Court Dates
Court Due Date: 2020-02-05 Court Filed Date:
Extension: P Timely: I To Press Date:
Lower Court Dates
Court From: CA 6 Lower Court Docket Number: 16-1009
Decision Below Date: 2019-04-10 Rehearing Denied Below Date: 2019-06-05
Notice of Appeal Filed Date:
SC Decision Information
Date of Cert: Disposition:
USA: EDMI Term: Percuriam: Summary: Rule 46:
Rhg Denied Date:
Notes:
Proceedings
1 2019-11-26 FLD EXTENSION OF TIME TO FILE A RESPONSE UNTIL 1/6/2020..- GRANTED ON 11/27/19
BY BICKELL.
2 2020-01-02 FLD2ND EXTENSION OF TIME TO FILE A RESPONSE UNTIL 2/5/20. COUNSEL FOR
PETITIONER DOES NOT OBJECT TO THIS FURTHER EXTENSION OF TIME.
Counsel
84198340

ELWOOD, JOHN (ARNOLD & PORTER KAYE 601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
SCHOLER LLP)

84198341

MARWELL, JEREMY (VINSON & ELKINS LLP)2200 PENN. AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037

84198342

TABLEMAN, KENNETH (KENNETH P.
TABLEMAN, P.C.)

161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701

https://jcap.justapps.doj .gov/ads/tracking.update.request.do?dataObi ectKeyobject.docket&... 1/2/2020

